No. 20-361

In the Supreme Court of the United States
JAMES COURTNEY AND CLIFFORD COURTNEY,
PETITIONERS,
V.

DAVID DANNER, IN HIS OFFICIAL CAPACITY AS CHAIRMAN
AND COMMISSIONER OF THE WASHINGTON UTILITIES &
TRANSPORTATION COMMISSION, ET AL.,

CERTIFICATE OF
WORD COUNT

RESPONDENTS.

Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Amicus Brief In Support Of Respondent, which was prepared using
Century Schoolbook 12-point typeface, contains 7,120 words, excluding the parts of
the document that are exempted by Rule 33.1(d). This certificate was prepared in
reliance on the word-count function of the word-processing system (Microsoft Word)
used to prepare the document.
I am a member of the Bar of the Supreme Court of the United States.
DATED this 4th day of December 2020.
s/ Noah G. Purcell
NOAH G. PURCELL
Solicitor General
Counsel of Record
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

